nm

OCKEE

2311 Douglas Street CA 4 aaa
Omaha, Nebraska 68102-1214 Legal Briefs ress

Bscigss contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1165

CHUCK WILLIS,
Petitioner,
v.
TOWER LOAN OF MISSISSIPPI, LLC,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT’S BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2222 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of April, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Kepee. 0. Lae Queda h, Gb ly

Notary Public Affiant

 

 

39774
